May 17, 2021

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Kansas Natural Resource Coalition v. Department of the Interior,
Docket No. 20-1195 Pending Petition for a Writ of Certiorari

Dear Mr. Harris:
Respondents’ brief in opposition in the above-captioned case was filed on May
14, 2021. Pursuant to Supreme Court Rule 15.5, petitioner expressly waives the
14-day waiting period for distribution of this case to the Court. We respectfully
request that the Court distribute this case on its next distribution date for paid
cases, which we understand is May 18, 2021, so that the petition may be
considered at the June 3, 2021 conference.
Respectfully,

Jonathan Wood
Counsel of Record for Petitioners
Attachment
cc: All Counsel

